APPENDIX B:
People v. Joe Edward Johnson, No. $029551, California Supreme Court Denial of the
Petition for Rehearing, February 11, 2020

APPENDIX
141
SUPREME COURT
FILED
FEB 11 2020
IN THE SUPREME COURT OF
CALIFORNIA Jorge Navarrete Clerk.
Deputy
THE PEOPLE,
Plaintiff and Respondent,
v.
JOE EDWARD JOHNSON,
Defendant and Appellant.

8029551

Sacramento County Superior Court
58961

 

ORDER MODIFYING OPINION AND
DENYING PETITION FOR REHEARING

THE COURT:

The majority opinion in this case, filed on November 25, 2019,
and appearing at 8 Cal.5th 475, is modified as follows:

1. The first sentence of the third full paragraph on page 494
presently reads: “At a pretrial hearing on June 12, trial counsel
indicated that they were ready to proceed with trial as scheduled.”
This sentence is modified to read as follows:

At a discovery sanctions hearing on June 12,
the court confirmed the scheduled June 22

trial date, and counsel for both parties indicated
that they anticipated proceeding with pretrial
motions on that date.

APPENDIX
142
2. The last sentence of the second full paragraph on page 501
presently reads: “Meanwhile, trial counsel advised the court on
June 12 that they were ready to proceed with trial as scheduled.”
This sentence is modified to read as follows:

Meanwhile, trial counsel advised the court
on June 12 that they intended to adhere to the
existing trial schedule.

This modification does not affect the judgment.

The petition for rehearing is denied.
